No, 20-1294

 

In THE
Supreme Court of the United States

SIMON CAMPBELL AND
PENNSYLVANIANS FOR UNION REFORM,
Petitioners,
ve

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. Volt, III,
SOLELY IN HIS INDIVIDUAL CAPACITY;

Katy SWOPE, SOLELY IN HER INDIVIDUAL CAPACITY;
LAWRENCE FEINBERG, SOLELY IN HIS INDIVIDUAL
CAPACITY; ERIC WOLFGANG, SOLELY IN HIS
INDIVIDUAL CAPACITY; DANIEL O'KEEFE, SOLELY IN
HIS INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS KEREK,
SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,761 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 28, 2021.

 

Wilson-Epes Printing Co., Inc.
